HHS/OIG, Audit - "Review of Billing Procedures for Medicare Claims
Submitted to AdminaStar Federal by Inpatient Psychiatric Facilities During
2005," (A-01-07-00500)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Billing Procedures for Medicare Claims
Submitted to AdminaStar Federal by Inpatient Psychiatric Facilities During
2005," (A-01-07-00500)
June 19, 2007
Complete
Text of Report is available in PDF format (335 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether inpatient
psychiatric facilities (IPF) properly submitted Medicare claims paid by
AdminaStar Federal (AdminaStar) for transition stays.
IPFs did not always properly submit claims paid by
AdminaStar for transition stays in 2005.  Specifically, for 76 of the 100 claims
that we sampled (from the population of 638 claims), IPFs incorrectly split the
beneficiarys stay by submitting 1 claim under the Tax Equity and Fiscal
Responsibility Act of 1982 payment period and a second claim under the
prospective payment period, rather than properly submitting 1 claim for the
entire inpatient stay.  Based on our sample results, we estimate that AdminaStar
overpaid IPFs a total of $2.17 million for incorrectly billed Medicare claims
for transition stays in 2005.
We recommend that AdminaStar (1) make the appropriate
adjustments to the sampled claims that resulted in overpayments of $340,858, (2)
review our information on the additional 538 claims with potential overpayments
estimated at $1.83 million ($2.17 million less $340,858) and work with the IPFs
that provided the services to recover any overpayments, and (3) analyze
postpayment data from IPF claims submitted after our review to ensure that the
claims were billed properly and paid correctly by AdminaStar.  AdminaStar agreed
with our findings and recommendations and stated that it was taking appropriate
action.